                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General-Office of Audit




                                              PERFORMANCE AUDIT OF
                                              CITY OF SAVANNAH, GEORGIA
                                              PY 1998 AND PY 1999 WELFARE-TO-WORK
                                              COMPETITIVE AND FORMULA GRANTS
                                              MAY 1, 1998 TO JUNE 30, 2003




                                                                        Date Issued: September 30, 2005
                                                                        Report Number: 04-05-004-03-386
U.S. Department of Labor
Office of Inspector General                            September 2005
Office of Audit
                                                       Performance Audit of City of
                                                       Savannah, Georgia Welfare-to-
BRIEFLY…
Highlights of Report Number 04-05-004-03-386, a
                                                       Work Grants

report to the Assistant Secretary for Employment and   WHAT OIG FOUND
Training Administration. September 30, 2005.
                                                       OIG found that Savannah did not adequately
                                                       manage WtW grants; and the State of Georgia
WHY READ THE REPORT                                    and Savannah did not submit accurate and
                                                       reliable Quarterly Financial Status Reports
Welfare-to-Work (WtW) legislation passed in            (QFSR) related to participant data. We
August 1997 authorized the Secretary of Labor          questioned costs of $2,856,430. We also found
to provide $3 billion in WtW grants to states and      that the State of Georgia and City of Savannah
local communities. These grants were designed          did not follow existing controls for the proper
to target welfare recipients with the least skills,    preparation of QFSRs and the validation of
education, employment experience and those             participant data.
who live in high poverty areas. The report
discusses whether the City of Savannah                 WHAT OIG RECOMMENDED
adequately managed WtW grants and complied
with participant reporting requirements.               OIG recommended that the Assistant Secretary
                                                       for Employment and Training Administration
                                                       (ETA) recover total questioned costs of
                                                       $2,856,430 as follows:
WHY OIG DID THE AUDIT
                                                       •   $2,530,934 for the six WtW competitive
The OIG selected the City of Savannah, Georgia             contracts the City of Savannah did not
for audit because its WtW formula grant                    competitively bid; and, at the same time,
expenditures exceeded the grant amount. This               $729,935 for other issues related to three of
was determined after a review and analysis of its          the six contracts. To avoid duplication of
financial and participant reporting data as of             recovery, questioned costs should not
March 31, 2002. We audited a total of                      exceed $2,530,934.
$7,467,958 WtW formula and competitive grant
                                                       •   $322,549 for unauthorized and duplicate
funds provided to the City of Savannah, in
                                                           childcare payments related to a follow-on
Program Years 1998 and 1999. Our overall
                                                           contract that was competitive awarded.
objective was to determine if the City of
                                                       •   $2,947 in unsupported costs.
Savannah complied with regulatory
requirements for WtW grants in the areas of
managing WtW grants and participant reporting.         We also recommended the Assistant Secretary
                                                       for ETA ensure that the State of Georgia and
                                                       Savannah follow existing controls for proper
                                                       preparation of QFSRs and the validation of
READ THE FULL REPORT                                   participant data for DOL programs.
To view the report, including the scope,               The City of Savannah requested that OIG
methodology, and full agency response, go to:          change all but one finding involving questioned
http://www.oig.dol.gov/public/reports/oa/              costs to administrative findings. The State of
2005/04-05-004-03-386.pdf                              Georgia and Savannah did not dispute the
                                                       inaccuracy of participants’ performance data.
                               Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




Table of Contents
                                                                                                                      Page

EXECUTIVE SUMMARY .............................................................................................. 3

ASSISTANT INSPECTOR GENERAL's REPORT ....................................................... 7

FINDINGS AND RECOMMENDATIONS ...................................................................... 8

     Finding 1 - Savannah Did Not Adequately Manage WtW Grant Funds ............. 8

     Finding 2 - Savannah Did Not Comply With Participant Reporting
                 Requirements by Submitting Inaccurate and Unreliable
                 Performance Data .............................................................................25

EXHIBITS ...................................................................................................................31

A. Schedule of Questioned Costs...........................................................................33
B. Contracts Not Competitively Procured..............................................................35

APPENDICES ............................................................................................................37

A.   Background..........................................................................................................39
B.   Objectives, Scope, Methodology, and Criteria..................................................43
C.   Acronyms and Abbreviations .............................................................................49
D.   GDOL's Response ...............................................................................................51
E.   Savannah's Response .........................................................................................55




________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General                             1
Report No: 04-05-004-03-386
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                      U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-05-004-03-386
                       Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




Executive Summary
The Welfare-to-Work (WtW) legislation passed in August 1997 authorized the Secretary
of Labor to provide $3 billion in WtW grants to states and local communities. These
grants were intended to serve welfare recipients with the least skills, education,
employment experience and those who lived in high poverty areas.

The Office of Inspector General (OIG) conducted a performance audit of the $7,467,958
Federally-funded WtW grants provided to the City of Savannah, Georgia (Savannah),
for Program Years (PY) 1998 and 1999. The $7,467,958 included three WtW formula
grants for a total of $3,400,958 after modifications, and one WtW competitive grant in
the amount of $4,067,000.1

The purpose of our audit was to determine if Savannah complied with regulatory
requirements for WtW grants in the areas of financial management and participant
reporting requirements. To accomplish these objectives, we designed our audit tests to
answer the following questions:

1.     Did Savannah adequately manage WtW grant funds?

2.     Did Savannah comply with participant reporting requirements by submitting
       accurate and reliable performance data; and serve eligible participants to meet
       program objectives?


Results

We found that:

1.     Savannah did not adequately manage WtW grant funds. When managing WtW
       grant funds, Savannah did not adhere to Federal regulations and its own policy
       and procedures. As a result, we question a total of $2,856,430 that relate to
       WtW competitive grant funds. Specifically, Savannah did not conduct full and
       open competition when awarding 6 of 24 contracts to grant partners of its WtW
       competitive grant. Consequently, we question $2,530,934, the total expenditure
       amount of the six contracts. Of this amount, we also question costs of $729,935
       for reasons related to unauthorized and unreasonable costs related to three of
       the six contracts referred to above. See Exhibit A (Schedule of Questioned
       Costs) for details.



1The three WtW Formula grants were awarded in May 1998, September 1999, and August 2002; and the
WtW Competitive grant was awarded in January 1999.
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                 3
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


        We also question $322,549 for unauthorized and duplicate payments for non-
        traditional childcare services. These questioned costs relate to a follow-on
        contract that was competitively awarded for continual childcare services.

        In addition, ETA and other independent auditors identified a variety of
        administrative and programmatic problems with Savannah’s WtW grant
        programs. For example, ETA noted after more than 2 ½ years, Savannah spent
        more than $1.8 million of WtW competitive grant funds and had not placed any
        participants in unsubsidized employment. Consequently, ETA suspended
        Savannah’s drawdown privileges for approximately 1 year.

        Also, independent auditors reported that Savannah accumulated $359,196 more
        expenditures than its PY 1999 WtW formula grant amount. Savannah liquidated
        the $359,196 overage by using other Department of Labor (DOL) funds and other
        financial assistance from the State of Georgia. However, we question $2,947 in
        costs charged to the competitive grant as part of the $359,196 formula grant
        overage because they could not be supported.

2.      Savannah did not comply with participant reporting requirements by submitting
        inaccurate and unreliable performance data to the Georgia Department of Labor
        (GDOL) and subsequently to ETA. In addition, GDOL inaccurately reported
        participant performance data to ETA.2 We found that 62 percent of selected
        WtW participant performance data3 was either misreported or omitted.

        Based on our sample of 82 participant files, we determined the number of
        ineligible participants was less than 5 percent. We consider this to be a
        reasonable error rate. We also found that ETA questioned Savannah’s ability to
        track participant status. Specifically, ETA was unable to verify participant data
        related to WtW competitive grant programs on Savannah’s Quarterly Financial
        Statement Report (QFSR).

Recommendations

We recommend that the Assistant Secretary for ETA:

     1. Recover questioned costs of $2,530,934 that represent the total expenditure
        amount for the six contracts for which Savannah did not perform an open and
        competitive award process.




2
  Savannah was responsible for submitting participant performance data, related to the WtW Competitive grant,
directly to ETA after GDOL generated participants’ performance results. GDOL was responsible for reporting
participants performance data, related to WtW Formula grants, to ETA.
3
  Our sample does not distinguish between participants served under WtW Competitive and Formula grants since the
basic eligibility requirements were the same for both grants.

4                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 04-05-004-03-386
                       Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


   2. Recover questioned costs of $729,935 for other issues related to three of the six
      contracts noncompetitively awarded to Savannah’s grant partners. See Exhibit A
      for details.

       Although recommendations 1 and 2 relate to separate findings, ETA should
       consider the amount of questioned costs linked to these recommendations
       concurrently to avoid any recovery of duplicate questioned costs. See Exhibit A
       for Schedule of Questioned Costs.

       If ETA resolves not to question the $2,530,934 in contract costs that were not
       awarded in an open and competitive process, ETA still needs to consider if
       $729,935 of the $2,530,934 questioned costs were unauthorized or
       unreasonable.

   3. Recover questioned costs of $322,549 related to a follow-on contract of
      Savannah’s nontraditional childcare program that was competitively awarded.
      The questioned costs were due to unauthorized and duplicate payments for
      childcare services.

   4. Recover questioned costs of $2,947 for unsupported costs shifted to the
      competitive grant to cover overage of accumulated expenditures in the PY 1999
      formula grant. Require Savannah to take steps to ensure adequate financial and
      administrative controls are put in place to ensure DOL funds are expended in
      accordance with the applicable Federal regulations. Also, ensure contract costs
      related to DOL programs are necessary and reasonable pursuant to the terms of
      the grant and contract.

   5. Ensure the State of Georgia and the City of Savannah follow existing controls for
      the proper preparation of QFSRs and the validation of participant data for DOL
      programs.


City of Savannah and the State of Georgia Response

The City of Savannah requested that OIG change all questioned costs to administrative
findings except costs questioned in sub-finding 1d (see pp 16-17). With regard to sub-
finding 1d, the City of Savannah asked that OIG remove the finding from the report.
Neither the State of Georgia nor the City of Savannah disputed the inaccuracy of participant
performance data.

The State of Georgia’s response in its entirety is attached to this report as Appendix D. The
body of the City of Savannah’s response is included in Appendix E. Since attachments to the
City of Savannah’s response contained personal identifying information, the attachments are not
included with this report.




________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                     5
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




OIG Conclusion

We considered both responses in their entirety and found no additional information was
provided that materially affected the report. Therefore, the report findings remain
unchanged. The recommendations will be resolved during DOL’s formal audit
resolution process.




6                                      U.S. Department of Labor—Office of Inspector General
                                                              Report No: 04-05-004-03-386
                     Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC. 20210




                        Assistant Inspector General’s Report



Ms. Emily Stover DeRocco
Assistant Secretary for
 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We audited the City of Savannah, Georgia (Savannah), Welfare-to-Work (WtW)
competitive and formula grants. The Coastal Workforce Services (CWS) replaced
SeaCoast Workforce Development Board (SWDB) as Savannah’s administrative entity
for both WtW competitive and formula grants. Savannah received its competitive grant
directly from ETA and its formula grants from the State. Savannah was awarded a total
of $7,467,958 in WtW grant funds. The amount awarded included three WtW formula
grants for a total of $3,400,958 after modifications, and one WtW competitive grant in
the amount of $4,067,000.

The purpose of our audit was to determine if Savannah complied with regulatory
requirements for WtW grants in the areas of financial management and participant
reporting requirements. To accomplish these objectives, we designed our audit tests to
answer the following questions:

1. Did Savannah adequately manage WtW grant funds?

2. Did Savannah comply with mandatory participant reporting requirements by
   submitting accurate and reliable performance data; and serve eligible participants to
   meet program objectives?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                     7
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

FINDINGS AND RECOMMENDATIONS

Objective 1 - Did Savannah adequately manage WtW grant funds?

Finding 1 - Savannah did not adequately manage WtW grant funds.

When managing WtW grant funds, Savannah did not adhere to Federal Regulations
and its own policy and procedures. Savannah did not comply with regulatory
requirements for WtW grants in the areas of contract procurement and management,
and did not meet the standards for budget controls, internal controls, and allowable
costs, which are key components of an effective financial management system. The
Code of Federal Regulations (CFR) 29 CFR 97.20 (Standards for Financial
Management Systems), states that grantees and subgrantees must have an adequate
financial management system that includes internal and management controls
necessary to ensure grant fund expenditures are allowable and authorized.

Our audit results revealed that Savannah did not comply with regulatory requirements to
conduct full and open competition when it awarded 6 of 24 contracts. Savannah
reimbursed contractors for costs that were unauthorized and unreasonable based on
the terms of the competitive grant. Savannah’s accumulated expenditures exceeded its
Program Year (PY) 1999 WtW formula grant amount by $359,196. ETA reported other
problems with Savannah’s WtW competitive grant programs in its monitoring report
dated August 30, 2001. As a result, ETA suspended Savannah’s drawdown privileges
of its WtW competitive grant funds for about 1 year. ETA restored the drawdown
privileges when Savannah officials reported improvements in their participant job
placements performance measure.

We identified a total of $2,856,430 in questioned costs related to WtW competitive grant
funds. Specifically, $2,530,934 related to noncompliance with procurement regulations
for six contracts awarded to grant partners (Finding 1a). Of this amount, we also
question $729,935 related to three of the six contracts for unreasonable and
unauthorized costs (Finding 1b – 1g). Additionally, we question $322,549 related to a
follow-on contract of Savannah’s nontraditional childcare program (Finding 1b and 1c).
Lastly, we question $2,947 for unsupported costs related to WtW competitive grant
funds. These unsupported costs were used to help absorb a $359,196 overage of WtW
formula grant accumulated expenditures (Finding 1h). These and other issues are
discussed in detail below.

Finding 1a:- Savannah did not comply with Federal procurement requirements.

Savannah did not conduct full and open competition when it awarded 6 of 24 contracts
(25 percent) to grant partners of its WtW competitive grant. The grant partners were




8                                    U.S. Department of Labor—Office of Inspector General
                                                             Report No: 04-05-004-03-386
                         Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


included as service providers in the WtW competitive grant agreement. Federal
regulations require full and open competition when awarding contracts. Consequently,
we question $2,530,934, the total expenditure amount of the six contracts.

The six grant partners referred to in this discussion are:

•   Lutheran Services of Georgia (LSG)
•   Chatham Area Transit (CAT)
•   Goodwill Industries of the Coastal Empire, Inc. (Goodwill Industries)
•   Housing Authority of Savannah
•   Small Business Assistance Center
•   Work Activity Center

Within the grant agreement, Savannah provided assurance that it would fully comply
with Federal procurement regulations at 29 CFR 97, including regulations at 29 CFR
97.36 (c) (Competition), which states:

       All procurement transactions will be conducted in a manner providing full
       and open competition consistent with the standards of Sec. 97.36.

The regulations stress that proper procurement practices may help grantees and sub-
grantees avoid unnecessary and duplicative items, and purchase goods and services at
an economical and reasonable price. Inclusion of the grant partners in the grant
application does not relieve the grantee from following Federal requirements, ETA
instructions, or its own procurement policy.

ETA awarded Savannah a $4,067,000 WtW competitive grant in January 1999. The
total amount of the six contracts was $2,813,907 (or 69 percent of the grant amount).
The total expenditures for the six contracts amounted to $2,530,934 (or 62 percent of
the grant amount). See Exhibit B for details.

Early during the audit, Savannah officials admitted that none of the initial contracts were
competitively awarded to the six grant partners. When these contracts were awarded,
Savannah officials mistakenly considered that ETA had competitively procured the six
contracts since the six grant partners were included in the grant agreement as service
providers.

On September 15, 1999, ETA responded to a request by Savannah officials for
approval to sole source a Welfare-to-Work Competitive contract to Savannah/Chatham
Youth Futures Authority for customer service training.4 ETA denied Savannah’s request
based on established practices described in the WtW Technical Assistance manual that
were later codified in TEGL No. 15-01.


4
 LSG and the Youth Future Authority created a public-private collaborative designed to serve the needs
of at-risk children.
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                       9
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

After Savannah awarded the six contracts, ETA admonished Savannah for not
conducting proper procurement practices. On August 30, 2001, ETA took issue with
Savannah’s procurement practices. ETA stated in its monitoring report:

           There was no documentation to determine if these contracts were
           competitively bid. The grantee was advised against sole-source
           contracting in correspondence dated September 15, 1999, and
           subsequent training provided by USDOL national and regional offices.

On August 4, 2003, we provided Savannah officials with our Statement of Facts
document, which identified five of the six contracts5 that Savannah did not competitively
award. On August 21, 2003, in response to our Statement of Facts document,
Savannah officials stated:

           Correspondence between former Executive Director, [Name Deleted]
           and, the Administrator of U.S. DOL ETA, [Name Deleted], indicate that
           partners who participated in the development of the project believed
           the strength of the “community collaborations were the backbone of
           their submission and that the competitive procurement was conducted
           by the U. S. Department of Labor” through the Competitive Grant. It
           was later determined that a competitive process for partners was
           required and selection of partners was not automatic. Appropriate
           action was taken and all contracts were competitively procured.

Savannah’s response confirms that the contracts had not been competitively awarded
as required by Federal procurement regulations. Title 29 CFR Part 97 (Uniform
Administrative Requirements for Grants and Cooperative Agreements to State and
Local Governments) requires that some form of price analysis shall be completed and
documented for every procurement action. Furthermore, open competition ensures that
contractors provide the highest quality of services at the most economical and
reasonable price. Because Savannah circumvented this federally required process for
procurement, the requisite assurance of the highest quality of services at a fair price
was not assured for the six contractors’ services. As a result, we question $2,530,934,
the total expenditure amount for the six contracts that Savannah did not competitively
award to its WtW competitive grant partners.

During our exit meeting, Savannah officials pointed out what they perceived
to be an inconsistency in ETA’s policy as it relates to awarding contracts to grant
partners. Savannah officials provided a letter dated (May 9, 2000), from ETA’s Acting
Administrator, Office of Youth Services to attendees of a Youth Opportunity Grant
conference (April 26-28, 2000) which states:




5
    A sixth contract was identified after we issued the Statement of Facts.

10                                                 U.S. Department of Labor—Office of Inspector General
                                                                           Report No: 04-05-004-03-386
                         Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


        The partners identified in your application/proposal do not need to be competed.
        Any new services must be procured according to the awardees procurement
        policies.

However, we found ETA’s written guidance and policy regarding the need for grant
partners to competitively bid is consistent. This guidance can be found in ETA’s
WtW Technical Assistance manual (October 26, 1999). In addition, this guidance was
codified in ETA’s Training and Employment Guidance Letter (TEGL) No. 15–01,
March 22, 2002, “Set of Revised WtW Questions and Answers”. The TEGL requires
grant partners to competitively bid for contracts as stated by the question and answer
(AF10) in the Administrative and Fiscal section of the attachment. 6

We also identified other reasons to question a total of $729,935 related to three of the
six contracts not competitively awarded. We determined the questioned costs resulted
because Savannah did not ensure that key standards for an effective financial
management system were met as required by 29 CFR 97.20 (Standards for financial
management systems).

We determined the “Allowable Costs” standard was a common issue involving all
questioned costs. This standard requires grantees and subgrantees to follow applicable
OMB cost principles, agency program regulations, and the terms of grant and subgrant
agreements to determine the reasonableness, allowability and allocability of costs. We
questioned costs because they were unauthorized or unreasonable. With the exception
of the issue in Finding 1d, a lack of Internal Control was determined to be common to all
other issues in Finding 1 of this report. The standard for “Internal Control” requires
grantees and subgrantess to maintain effective controls and accountability for all grant
and subgrant cash, and to ensure that grant funds are used solely for authorized
purposes. The standard for “Budget Control”, which requires actual expenditures
(including unit cost) to be compared with budgeted amounts for each grant and
subgrant, was cited as a deficiency in two of the findings discussed below.

Finding 1b - Amounts paid for childcare services exceeded amounts in the WtW
Grant Agreement, and other unauthorized childcare services were provided.

Savannah paid childcare providers, through its program operator, amounts that exceeded
the cost per child in the WtW competitive grant. The grant between ETA and Savannah
provided that specific supplemental payments be made to childcare providers for
Temporary Assistance for Needy Families (TANF) recipients in need of nontraditional
childcare services while transitioning to work. Savannah contracted with LSG as the
childcare program operator. We compared the individual amounts in the grant to the
actual amounts LSG paid the providers for childcare services. We determined LSG paid
childcare providers a total of $606,063 for amounts that exceeded childcare fees
authorized in Savannah’s competitive grant related to the nontraditional childcare
program. The $606,063 included a total of $354,027 LSG paid childcare providers in
6
  The questions and answers related to this issue are identical in ETA’s WtW Technical Assistance Manual
(refer to Q&A AF13) and the TEGL No. 15-01 (refer to Q&A AF10).
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                        11
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

excess of the grant’s weekly cost per child. We identified an additional $252,036 that
LSG paid providers for childcare services to children who exceeded the grant authorized
age limit. Savannah did not question the payments and reimbursed LSG for these costs.
Consequently, we question a total of $606,063 for excessive and unauthorized childcare
costs related to Savannah’s nontraditional childcare program.

ETA awarded Savannah a WtW competitive grant to provide a variety of services,
including nontraditional childcare assistance to TANF recipients transitioning to work.
Savannah contracted with LSG, its grant partner, to administer the nontraditional
childcare programs, which included making client referrals and payments to childcare
providers. Savannah awarded LSG two contracts7 for a total of $1,574,433 to administer
both childcare programs. The total amount of the initial contract was $1,116,433,
followed by a second contract for $458,000. The second contract also allowed for
traditional childcare services to TANF recipients.

According to the grant agreement, the intent of the program was to provide specific
supplemental payments for nontraditional childcare services based on a child’s
classification as an infant, toddler, or pre-schooler. The grant agreement states:

        Payments for CHILDCARE are already provided by the Department
        of Family and Children’s Services [DFCS] to TANF recipients if they
        are enrolled in a training or work experience program. The proposal
        here is to supplement the DFCS payments for TANF recipients,
        which will allow providers to expand slot levels and hours of
        operation.

Rather than providing supplemental payments as described in the grant agreement, LSG
paid childcare providers the total weekly rate for the childcare services. According to
Savannah and LSG officials, they were concerned that eligible participants might be
denied employment opportunities because it would have taken DFCS several weeks to
arrange childcare services for the client. These officials determined it would be more
expedient for them to provide interim childcare services for TANF recipients until DFCS
could arrange childcare services.

On September 23, 1999, Savannah and LSG established the following policy.

        … (2) If a welfare to work client accepts a job with non-traditional or
        extended hours, LMG [LSG] will pay the client’s child care costs to
        the child care provider until the DFCS child care provider contract is
        in place. Once the DFCS childcare contract is in place, then LMG
        will pay the child care provider a supplement.


7 Contract No.99-08C for $1,116,433, period of performance was May 1, 1999, to December 31, 2002; and

Contract No. 02-030A for $458,000, period of performance was April 15, 2002, to June 30, 2003. We noted
that the subsequent contract period overlapped the initial contract period and provided both traditional
and nontraditional childcare services.

12                                         U.S. Department of Labor—Office of Inspector General
                                                                   Report No: 04-05-004-03-386
                         Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


It is worthwhile to note that the policy did not provide for DFCS to reimburse either
Savannah or LSG for any cost of providing interim childcare services. Also, according to
LSG’s WtW Program Manager, LSG has never paid supplemental payments for childcare
services as a matter of practice.

Furthermore, from August 1999 to January 2001, LSG was not consistent with the
amounts it paid to childcare providers. As a result, LSG established standardized fee
schedules for nontraditional childcare services. On January 22, 2001, LSG issued the
first of several policy statements to WtW childcare providers related to “Standardized
Fees for Non-Traditional Childcare” services. According to LSG’s Vice President of
Operations, this was done mainly to keep better track of what childcare providers were
being paid. However, the standardized fees exceeded fees in the grant agreement.
Table 1 compares the childcare fees in the grant agreement to the standardized fees LSG
actually paid childcare providers.



                                                                          Table 1
                                 PY 1999 WtW Competitive
                                     Grant vs. Actual
                           Fee Schedule for Childcare Assistance

                   Grant Amount                LSG’s Fee Schedule Amount
              Child               Weekly     Age of      February April    February
              Classification       Fee       Child        2001    2002       2003
                                             0 year -
              Infants               $30      1 year        $85     $75        $75
              Toddlers              $20      2 years       $85     $75        $75
                                             3 years -
              Pre-schoolers         $20      5 years       $75     $65        $65
                                             6 years -
              6 years and over      N/A      and over      $65     $50        $50


As Table 1 illustrates, LSG’s childcare costs were based on the age of the child rather
than a child classification as defined in the grant agreement (i.e., infant, toddler, or pre-
schooler). By doing this, childcare providers could charge the same fee for “toddlers” and
“infants.” Based on LSG invoices, childcare weekly fees for infants were higher than
other children.

We requested all invoices related to LSG’s nontraditional childcare program since
inception of the childcare program. The dates of these invoices covered August 1999
through June 2003. We reviewed the invoices and identified a total of 335 children under
the age of 6 years whose childcare costs exceeded amounts in the grant agreement by a
total of $354,027. There were 2,408 claims for childcare payments associated with the
335 children. Separately, we identified an additional 159 school age children between the



________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                     13
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

ages of 6 and 14 years who received unauthorized childcare services for a total of
$252,036.8

In addition to the “Allowable Cost” and “Internal Control” standards for an effective
financial management system standards at 29 CFR 97.20 referred to above, grantees
and subgrantees must meet the standard for “Budget Control” to ensure that expenditures
are compared to budgeted amounts, including unit cost. Savannah did not ensure that
childcare providers were being paid the authorized weekly rate for childcare services
contained in the grant agreement.

Table 2 illustrates a comparison of nontraditional childcare costs between amounts in the
grant agreement and the amounts LSG paid childcare providers.




                                                                                 Table 2
                                 PY 1999 WtW Competitive
                         Comparison of Nontraditional Childcare Costs
                              Grant Amount vs. Amount Paid
                  Age of       No. of No. of          Grant        Paid
                       9
                  Child       Children Claims        Amount       Amount       Difference

                 0-1 year        123         752       $71,730     $176,470      $104,740
                 2 years         56          487       $31,740     $116,944       $ 85,204
                 3-5 years       156        1,169      $76,050     $240,133      $164,083
                 6 years
                 and over        159        1,402        0     $252,036          $252,036
                    Total       494(10)     3,810     $179,520 $785,583          $606,063

The terms of the nontraditional childcare program as described in the grant between ETA
and Savannah extend to the contract between Savannah and LSG. Accordingly, any
material changes to the nontraditional childcare program, as described in the grant
agreement, should have had prior approval from ETA. The grant required that, “Changes
in excess of 20 percent and any changes in wages, salaries and fringe benefits, MUST
receive prior written approval from the Grant Officer.” In each instance we identified, the
amount paid for nontraditional childcare services exceeded the cost per child by more
than 20 percent. We found no evidence of approval from ETA that allowed LSG to
charge these costs under the nontraditional childcare program.



8
  An additional $32,263 was determined to be duplicate payments, and are included as part of Finding 1c.
9 The amount of childcare costs was based on the age of the child or the child’s classification as illustrated
in Table 1.
10 Total number of children that received childcare was 405. The 494 total reflects duplicates due to

change in age over 1999-2003.

14                                           U.S. Department of Labor—Office of Inspector General
                                                                     Report No: 04-05-004-03-386
                         Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


Title 29 CFR 97.20 requires budgetary controls to ensure actual expenditures do not
exceed the budget, including applicable unit costs. Savannah exceeded its budgetary
unit costs for childcare services and also expended funds for unauthorized childcare.
Consequently, we question a total of $606,063 for childcare costs that exceeded the grant
amounts and for other childcare costs not authorized in the grant agreement.

The total questioned cost of $606,063 for excessive and unauthorized childcare costs is
split between two contracts with LSG, contract 99-08C (not competitively awarded) and
contract 02-030A (competitively awarded), in the amounts of $327,448 and $278,615,
respectively.

Finding 1c - Savannah reimbursed its contractor a total of $79,144 in duplicate
payments for childcare services.

Savannah reimbursed LSG a total of $79,144 in duplicate payments for childcare
services beyond the authorized full workweek. Savannah contracted with LSG to
provide WtW participants nontraditional childcare assistance while WtW participants
attempted to meet the Program’s work requirements.11 Savannah reimbursed LSG for
childcare services that extended beyond the services authorized during a full
Workweek. 12

In addition to the Federal regulations at 29 CFR 97.20 referred above, OMB
Circular A-87 requires costs to be allowable, and authorized by state or local
laws or regulations. We found no evidence to support that these particular costs
were authorized or allowed by the grant agreement or LSG’s contract with
Savannah.

We requested all invoices LSG submitted to Savannah for reimbursement related to
nontraditional childcare services. We identified 604 reimbursement claims for childcare
services that were provided beyond the authorized period during a full workweek.
According to LSG’s Standardized Fee Schedule for Non-Traditional Childcare policy to
all WtW childcare providers:13

       All rates apply to a 5-day work week. If you are providing care to a
       child both during the week and on the weekend, that child should
       only be in their care during the week for (3 week days/2 days on the
       weekend) or (4 weekdays/1 day on the weekend). If a parent has
       to work extra days, childcare services must be approved by WtW
       Childcare Services. No child should be in daycare beyond 10
       hours per day and no child should be in daycare 7 days a week.
       Any fees beyond the normal workweek and beyond 10 hours a day

11 Contract No. 99-08C, was funded with WtW Competitive grant funds. The contract amount was
$1,116,433, and covered May 1, 1999, to December 31, 2002.
12 Generally, LSG considered a full workweek to be 3 to 5 days worked during a 7-day period or work on

Saturday and Sunday only.
13 See Finding Ib, Table 1 for LSG’s Fee Schedule for Non-Traditional Childcare Assistance.

________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                       15
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

           will become the sole responsibility of the parent. Please be aware
           that if a child is only in your care for 1 day on the weekend you will
           not be paid the full weekly rate.

According to LSG’s Vice President of Operations, LSG’s staff incorrectly paid twice the
weekly rate when childcare services included both weekdays and weekend days in a full
workweek (Wednesday through Sunday). LSG’s Vice President referred to this
as “double dipping”, which resulted in duplicate payments for childcare services in a full
workweek. The Vice President attributes this to staff misinterpretation of LSG’s
Childcare Payment Schedule policy. Specifically, Example 3 of the policy states:

           Work week is the five day period Saturday, Sunday, Monday,
           Tuesday, and Wednesday. Required payment would be full week
           rate Monday-Friday and full week rate Saturday-Sunday.

The Vice President of Operations indicated that LSG’s staff interpreted the policy to
mean that separate childcare payments were required for weekdays and weekend days.
Again, even though LSG’s policy required prior approval from Savannah to pay for
childcare services beyond the 5-day workweek, we found no evidence that Savannah
approved extra days of childcare services in these instances. Even if Savannah had
approved the extra days of childcare services, paying for childcare services beyond the
5-day workweek exceeded the scope of the program as described in the grant. The
grant only allowed for a nominal weekly supplemental payment for nontraditional
childcare services. Therefore, we question $79,144 in duplicate payments LSG paid
providers for childcare services beyond the authorized full workweek. The total
question cost of $79,144 is split between the two contracts between Savannah and
LSG, contract 99-08C (not competitively awarded) and contract 02-030A (competitively
awarded), in the amounts of $35,210 and $43,934, respectively.

Finding 1d - Savannah paid its contractor unreasonable costs to provide
transportation services to WtW participants.

Savannah paid approximately $228,707 in unreasonable transportation costs for 6,823
trips its contractor provided to WtW participants. We estimate that Savannah paid
Chatham Area Transit (CAT) $294,140 for 6,823 trips, compared to an estimate of
$65,433 that could have been reasonably charged by another local transportation
provider.

Savannah entered into a cost reimbursement contract with CAT (with Laidlaw Transit
Services, Inc. or Laidlaw) as the subcontractor14 to provide transportation services to
WtW participants that resided in Chatham County. The contract amount was $888,643
and covered August 1999 through December 2001. The primary objective of the
contract was:



14
     CAT (with Laidlaw as subcontractor) will be referred to as CAT in this finding and finding 1e.

16                                                U.S. Department of Labor—Office of Inspector General
                                                                          Report No: 04-05-004-03-386
                             Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


         To provide transportation for the WtW clients with children to daycare
         and then to the job, reverse trip and emergency pick-up … all
         transportation aspects of this contract have been sub-contracted to
         Laidlaw Transit Services, Inc. with oversight of the contract by CAT.

We estimate that Savannah paid CAT $294,140 for 6,823 trips ($43.11 per trip), an
amount that is unreasonable for transportation services provided. We found that
Savannah’s reimbursements to CAT were based on Laidlaw’s total operational costs
rather than a reasonable cost for the transportation services provided.

The OMB Circular A-87 requires cost to be reasonable. The Circular describes
“Reasonable Costs” as,

         … in its nature and amount, it does not exceed that which would be
         incurred by a prudent person under the circumstances prevailing at the
         time the decision was made to incur the cost.

As of November 21, 2003, CAT had compiled summary data for 6,823 of the 16,333
trips provided WtW participants. We used the summary data to evaluate the 6,823
trips to determine if the costs were reasonable. Using a random sample at a 95 percent
confidence level, we selected 140 trips for review from the universe of 6,823 trips for
which summary data was available. With the assistance of Yahoo Maps and MapQuest
(internet source mileage estimators), we estimated the number of miles for the 140 trips.
Next, we used the fee schedule of Airport Express,15 another local transportation
provider, to estimate its cost to provide WtW participants the same 6,823 trips. Based
on our sample, we estimate it would have cost $65,43316 if Airport Express were use to
provide the 6,823 trips, instead of the $294,140 Savannah reimbursed CAT for these
trips. Therefore, we estimate that Savannah paid $228,707 in unreasonable17 costs to
CAT for providing 6,823 trips to WtW participants. If we had audited the remaining
9,510 trips that were not summarized and if the excessive costs continued to be
reflected in these trips, and then we would reasonably expect similar results and
additional costs would have the potential to be questioned.

These unreasonable charges stemmed from the fact that CAT, as a Savannah WtW
competitive grant partner, was not required to competitively bid for the initial
transportation services contract. We consider the amount Savannah paid for CAT to
provide WtW participants’ transportation services to be unreasonable. Therefore, we
question $228,707 of transportation costs paid to CAT by Savannah under the initial
contract to provide transportation services.

15 Airport Express is another transportation provider selected by Savannah from a subsequent
competitive process to provide almost identical transportation services as CAT. We compared the
Airport Express contract to CAT contract and determined the services of providing participant
transportation were identical except for driver’s training costs. We removed this cost from our analysis.
16
   The sampling precision of the projection for cost to provide transportation to the 6,823 participants is plus or
minus $4,900.
17 The excess cost of $228,707 is based on the difference between $294,140 and $65,433.

________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                                        17
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants



Finding 1e - Savannah’s subcontractor used funds intended for WtW participants
to pay its employees’ salaries and benefits.

Savannah reimbursed CAT $92,339 intended for WtW participants to pay salaries and
fringe benefits for eight of its subcontractors’ employees. The contract between
Savannah and CAT required the salaries and fringe benefits be paid for van driver
trainees in the WtW Vanpooling/Guaranteed Ride Home program. After completing the
program, participants would be given the opportunity to purchase a van. Eight of the 11
individuals who participated in the program were not WtW participants, but rather
employees of Laidlaw. Consequently, we question $92,339 for the salaries and fringe
benefits paid for these eight individuals.

Savannah stated in its WtW competitive grant proposal that it would develop a
program to provide WtW participants transportation to and from work, with stops
for emergency pickups. To accomplish this, Savannah would purchase vans and
train WtW participants as van drivers. These participants would then have the
opportunity to purchase a van through loans, thus leading them to become
entrepreneurs and becoming self-sufficient. However, the grant agreement
between ETA and Savannah prohibited the use of WtW funds as loans to
purchase the vans. Still, training WtW participants as van drivers was allowed to
continue.

Savannah contracted with CAT to provide the WtW participants transportation
and van driver training. The contract required that the salaries and fringe
benefits of participants in the van driver training program to be paid with WtW
funds. We found that 8 of the 11`individuals in the program were employees of
Laidlaw and not WtW participants.

Based on CAT’s accounting records, all 11 individuals were reimbursed under
the program’s “Enrollee” cost category. However, our review of correspondence
showed that Savannah only verified 3 of the 11 individuals as WtW eligible
participants. Accordingly, none of the eight Laidlaw employees were presented
as meeting the general eligibility requirements for WtW at 20 CFR 645.212 and
20 CFR 645.213.18 According to a Laidlaw official, this was more of an
accounting issue rather than an issue of program eligibility. This official also
stated that any TANF “driver” would have to become an employee in order to
drive a company’s van. This is why WtW participants were considered
employees rather than enrollees while in the program.

In addition to the “Allowable Cost” and “Internal Control” standards for an
effective financial management system at 29 CFR 97.20 referred above,
grantees and subgrantees must meet the standard for “Budget Control” to ensure
that expenditures are compared to budgeted amounts, including unit cost.
1820 CFR 645.212 and 20 CFR 645.213 outlines general eligibility criteria for TANF recipients who are
classified as Hard-to-Employ and Long-term Welfare Dependency, respectively.

18                                          U.S. Department of Labor—Office of Inspector General
                                                                    Report No: 04-05-004-03-386
                     Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


Nowhere in the grant or contract budgets were Laidllaw’s employees considered
“Enrollees.”

To allow Laidlaw employees to be treated the same as WtW participants in this
case would seem to be at odds with the program objectives. Laidlaw employees
and WtW participants were considered the same in the way they were utilized in
the van driver program and reimbursed for salaries and benefits.

The original objective of the program was:

      … to provide an opportunity for TANF recipients to become self-supporting
      owners of a small business; e.g., vanpool operator.

Because Savannah was prohibited from using WtW funds to make loans to participants
towards the purchase of a van, the objective was not achievable as intended.
Consequently, we question $92,339 paid for the wages and fringe benefits to the
employees of Laidlaw who were not determined eligible for the WtW program.

Finding 1f - Savannah reimbursed its contractor for unauthorized transportation
and registration fees.

Savannah reimbursed LSG a total of $39,760 for unauthorized transportation and
registration fees. According to LSG’s summary expenditure report, we identified a
total of $39,760 related to transportation and registration fees we determined to be
unauthorized based on the grant agreement. According to the report, LSG spent
$32,860 and $6,900 for transportation and registration fees, respectively. These costs
were not identified in the contract as authorized childcare (Enrollee) activities.
According to LSG’s contract with Savannah, Enrollee (or participant) costs include:

      … vouchers for enrollees for non-traditional hour's child care infants, toddlers,
      pre-schoolers, and school age children to age 12.

We did not find any evidence in the grant or contract that authorized registration or
transportation fees. In fact, on August 15, 2001, LSG advised childcare providers that
they would no longer be reimbursed for transportation fees. According to the memo:

      It is with great reservation that we inform you that we are no longer
      authorized to pay transportation cost. This mandate is directed from the
      Department of Labor and will come into effect September 1, 2001.

OMB Circular A-87 requires cost to be authorized by state or local laws or regulations.
We found no evidence in the grant agreement or the contract between Savannah and
LSG to support that these particular costs were authorized or allowable. Savannah did
not provide evidence to support the authorization for these costs; therefore, we question
a total of $39,760 for unauthorized transportation and registration fees.


________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                     19
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

Finding 1g: Savannah reimbursed Goodwill Industries of the Coastal Empire,
Inc., for costs related to 18 ineligible participants in the WtW Wheels-to-Work
program.

Savannah reimbursed Goodwill Industries of the Coastal Empire, Inc. (Goodwill
Industries), $6,471 for auto related expenses19 for 18 ineligible participants in the WtW
Wheels-to-Work program. The Wheels-to-Work program was funded with WtW
competitive grant funds, which were intended to serve only residents of Chatham
County. The Wheels-to-Work program provided WtW participants an opportunity to
purchase a used vehicle while working.

In addition to Federal regulations at 29 CFR 97.20 referred above, OMB Circular A-87
requires costs to be allowable and authorized by state or local laws or regulations. We
found no evidence to support that these particular costs were authorized or allowed by
the grant agreement or Savannah.

Savannah and Goodwill Industries provided cars for the program. Savannah
reimbursed the program for the necessary auto repairs, inspections, and other services
before participants purchased the vehicles.

According to the contract, the program was designed to provide up to 75 participants
with an automobile when the individuals required personal transportation for work.
During the contract period,20 Goodwill Industries served 45 individuals in the Wheels-to-
Work program. We determined 18 of the 45 individuals (40 percent) were ineligible
because 16 did not reside in Chatham County, and two had not enrolled in the WtW
program. Savannah did not provide additional documentation to refute our conclusion
as it relates to these costs.

A total of $114,309 was expended from the WtW competitive grant for the Wheels-to-
Work program. According to Savannah’s records, a total of $6,471 was spent for auto
related expenses on behalf the 18 ineligible participants in the Wheels-to-Work
program. Consequently, we question the $6,471 spent on behalf of these 18 ineligible
participants for auto related expenses.

Finding 1h - Savannah Exceeded Its PY 1999 WtW Grant Amount by $359,196.

Independent auditors determined that Savannah’s accumulated expenditures exceeded
its grant amount21 by $359,196. The independent auditors concluded, and we concur,
that the accumulated expenditures overage was due to poor monitoring of grant
expenditures. Other DOL programs for which almost all selected individuals were


19
   Auto related expenses include repairs, inspections, towing, insurance, and car payments.
20The total contract amount, after modification, was $114,309 and covered July 1, 1999, through
 December 31, 2002.
21 Independent auditors conducted a Single Audit in accordance with OMB Circular A-133 for Fiscal

Years ended December 31, 2000 and 2001.

20                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 04-05-004-03-386
                            Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


eligible, and other financial assistance from the State of Georgia, were used to liquidate
the $359,196 overage. The overage was liquidated in the following manner:

     •   $203,064 was transferred to Savannah’s PY 1999 WtW competitive grant;
     •   $147,485 was obtained from other WtW formula funds from GDOL; and
     •   $8,647 was transferred to WIA programs to cover supportive services costs.22

Savannah officials reportedly identified 117 WtW formula grant participants who were
eligible for competitive grant funds, and transferred them to the competitive grant to
absorb $203,064 of the $359,196 overage. We compared the names and addresses of
these individual to Savannah’s Master List of WtW Participants to determine if they were
listed and if they resided in Chatham County, as required by the WtW competitive grant.
Based on our comparison, we found that 3 of the 117 individuals were not listed on the
Master List and 1 of the 3 individuals was not listed as a resident of Chatham County.
The total cost related to the three individuals was $2,947, which we question under the
competitive grant.

Savannah did not adhere to its internal controls over cash drawdowns. Savannah’s
financial management procedures require its Finance Department and the Senior
Accountant at the Workforce Board to conduct a periodic reconciliation of accumulated
expenditures and total cash drawn down. However, Savannah could not provide
evidence that such reconciliation had been performed.

ETA conducted a comprehensive monitoring review of Savannah’s WtW competitive
grant in August 2001. The purpose of the visit was to review the programmatic and
administrative elements of Savannah’s WtW competitive grant in an effort to determine
Savannah’s ability to successfully continue operations beyond September 20, 2001.
According to an ETA official, grant activity was suspended for a considerable amount of
time due to legislative changes23 that resulted in a change of subcontractors. However,
ETA conducted technical assistance roundtable conferences in PY 2000 to PY 2003 for
grantees that desired assistance with their WtW programs.

ETA identified 15 issues where Savannah’s administration of the WtW grants was
determined to have failed or needed considerable improvements. The issues generally
involved the administration of services systems, records, staffing, and the overall
performance of the grant. Of particular interest was ETA’s finding that Savannah had
expended approximately $1.8 million of the nearly $4.1 million competitive grant and
had not placed any participants in unsubsidized employment for more than 2 ½ years



22
   Section 663.310 allows core services to adults 18 years and older. Section 663.805 of WIA allows supportive
services to individuals who receive core, intensive or training. WIA strongly encourages local boards to establish
linkages between other programs in an effort to transition individuals to self-sufficiency. We reasonably concluded
that individuals receiving funds to cover their supportive services were eligible.
23
   The legislative changes involved the implementation of WIA during August 1998 to July 2000. There was also a
change of Savannah’s administrative agency for WtW programs from SeaCoast Workforce to Coastal Workforce
Services in July 2000, which contributed to the suspended grant activity.
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                                     21
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

after receiving the funds. 24 As a result of Savannah poor performance, ETA removed
Savannah from the Advance Payment System used to draw down funds from the WtW
competitive grant. Effective August 30, 2001, ETA required Savannah to submit
invoices for the costs of providing services for WtW competitive grant programs.25 In
response to ETA’s follow-up review conducted July 29 - 31, 2002, Savannah officials
stated:

        We are working to serve the additional participants and have met the new
        change in placement of unsubsidized employment by placing 456
        participants as of July 29, 2002.

Based on a follow-up review and the corrective action taken by Savannah, ETA’s
Regional Administrator recommended that Savannah be removed from the invoice
system and its drawdown privileges be restored effective September 18, 2002.

Although Savannah drawdown privileges were restored for WtW competitive grant
funds, the magnitude of issues cited by ETA in their monitoring visits and those issues
discussed in this report clearly indicate Savannah’s financial management system was
not effective for WtW grant funds. Savannah’s efforts to absorb its PY 1999 WtW
formula grant accumulated expenditures overage were generally successful. However,
we determined $2,947 of the $203,064 competitive grant funds used to absorb the
$359,196 overage was not supported. Therefore, we question $2,947 related to three
ineligible individuals of WtW competitive grant programs, whose related costs were
used to absorb the overage of accumulated expenditures.

Savannah’s failure to comply with regulatory requirements for WtW competitive grant
funds resulted in total questioned costs of $2,856,430. Savannah’s improper
procurement practices were the primary reason for the questioned costs. These
improper procurement practices led to other reasons for questioning costs involving
three contracts that Savannah noncompetitively awarded to it grant partners. Open
competition for contract services provides reasonable assurances that the services
have been acquired at the most reasonable and economical available price. In addition,
Savannah’s financial management system was not effective for WtW grant funds. The
presence of an effective financial management system makes it more likely that
program funds are used effectively and for its intended purpose.




24
  Savannah proposed to place 650 participants in unsubsidized employment when it applied for the Competitive
grant. As of August 2001, more than 2 ½ years after receiving the funds, no participants had been placed in
unsubsidized employment.
25 Under the invoice system, grantees must submit an invoice outlining funding activities and

expenditures to the Grant Officer’s Technical Representative in the regional office prior to drawing funds
under their WtW grant.

22                                           U.S. Department of Labor—Office of Inspector General
                                                                     Report No: 04-05-004-03-386
                     Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




Recommendations

1. We recommend the Assistant Secretary for ETA recover questioned costs of
   $2,530,934 that represent the total expenditure amount for the six contracts for
   which Savannah did not perform an open and competitive process in awarding
   contracts to its grant partners.

2. We recommend the Assistant Secretary for ETA recover questioned costs of
   $729,935 for other issues related to three of the six contracts noncompetitively
   awarded to Savannah’s WtW competitive grant partners. Specifically, the Assistant
   Secretary for ETA should recover:

      •   $327,448 LSG received for childcare payments that exceeded the
          supplemental amounts in the grant agreement, and other costs for childcare
          services not specified in the grant agreement (Finding 1b);

      •   $35,210 for duplicate childcare payments Savannah reimbursed LSG related
          to Savannah’s nontraditional childcare program (Finding 1c);

      •   $228,707 for unreasonable transportation costs Savannah reimbursed CAT
          related to 6,823 trips provided to WtW participants. Of the remaining 9,510
          trips provided to WtW participants, ETA should evaluate costs associated with
          these trips for reasonableness (Finding 1d);

      •   $92,339 for salaries and fringe benefits paid to Laidlaw employees as van
          drivers rather than WtW participants as intended (Finding 1e);

      •   $39,760 for unauthorized transportation and registration fees Savannah
          reimbursed LSG (Finding 1f); and

      •   $6,471 for auto related expenses on behalf of 18 ineligible WtW participants
          in the Goodwill Industries Wheels-to-Work program (Finding 1g).

   Although recommendations 1 and 2 relate to separate findings, ETA must consider
   the amount of questioned costs linked to these recommendations concurrently to
   avoid any recovery of duplicate questioned costs. Both recommendations contain
   questioned costs that are common to three of the six contracts that were not
   competitively awarded. See Exhibit A for Schedule of Questioned Costs.

   If ETA resolves not to question the $2,530,934 in contract costs that was not
   awarded in an open and competitive process, ETA will still need to consider if
   $729,935 of the $2,530,934 questioned costs was unauthorized or unreasonable.

3. We recommend the Assistant Secretary for ETA recover questioned costs of
   $322,549 related to a follow-on contract of Savannah’s nontraditional childcare
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                     23
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

     program that was competitively awarded. Questioned costs relate to childcare
     payments of $278,615 that exceeded costs per child and other childcare costs not
     specified in the grant agreement; and $43,934 in duplicates payments for childcare
     services beyond the authorized full workweek (Finding 1b and Finding 1c).

4. We recommend the Assistant Secretary for ETA recover question costs of $2,947
   for unsupported costs to cover overage of accumulated expenditures, and require
   Savannah to take steps to ensure adequate financial and administrative controls are
   put in place to ensure DOL funds are expended in accordance with the applicable
   federal regulations and that all contract costs related to DOL programs are
   necessary, reasonable, and allowable pursuant to the terms of the grant and
   contract agreement (Finding 1h).


Savannah’s Response

The City of Savannah provided a detail response to each finding in the draft report.
With the exception of finding 1d, the City of Savannah requests that all questioned costs
be changed to administrative findings. In its conclusion, Savannah summarized its
response to OIG’s draft report in two paragraphs. These paragraphs are provided
below.

        In summary, the City of Savannah and the Savannah community were
        concerned about the prospect of hundreds of persons in our community
        facing the loss of welfare benefits. The Welfare-to-Work Competitive grant
        was intended to provide Savannah residents with services necessary to
        make a successful transition from welfare to work. USDOL, in the grant
        solicitation, made clear that obtaining a competitive grant would be based
        on grantees working in partnership with service providers in their
        community. The City of Savannah assembled a competitive grant with
        community partnerships; the grant submission clearly showed the service
        providers, specifically described the services, and provided budgets and
        service arrangements for program services. The City of Savannah was
        awarded the grant and carried out the program in accordance with the
        information submitted to USDOL.

        Although we have respectfully submitted summarized rebuttals to each of
        the finding identified in the Draft Report, we are prepared to respond to
        USDOL/OIG and USDOL/ETA with a more detailed level of response
        providing all supporting documentation, to any extent that may be
        required. As per our rebuttal we are requesting that finding 1a, 1b, 1c, 1e,
        1f, 1g, and 1h be changed from questioned costs to administrative
        findings. We also request that finding 1d be removed from the draft audit
        [report].




24                                     U.S. Department of Labor—Office of Inspector General
                                                               Report No: 04-05-004-03-386
                         Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




OIG Conclusion

We have considered the City of Savannah’s response to the draft report. No additional
information was provided that materially affects the report. Therefore, the report
findings remain basically unchanged. The recommendations will be resolved during
DOL’s formal audit resolution process.

Objective 2 - Did Savannah comply with participant reporting requirements by
submitting accurate and reliable performance data, and serve eligible participants
to meet program objectives?

Finding 2 - Savannah Did Not Comply With Participant Reporting Requirements
by Submitting Inaccurate and Unreliable Performance Data.

Savannah’s participant performance data reported to the Georgia Department of Labor
(GDOL) and subsequently to ETA was inaccurate and unreliable. We found that 62
percent of selected WtW participant performance data was either misreported or
omitted from Savannah’s Quarterly Financial Status Reports (QFSRs). Furthermore,
we determined Savannah was missing official participant files and misclassified
participants’ eligibility status.

Finding 2a: Savannah reported inaccurate performance data on QFSRs.

Savannah’s participant performance data reported to GDOL and subsequently to ETA
was inaccurate and unreliable for determining program results. Savannah entered
WtW participant performance data into the State (or GDOL) Management Information
System (MIS). GDOL utilized this data to prepare QFSRs for both WtW competitive and
formula grants. Because Savannah received WtW competitive grant funds directly from
ETA, Savannah was required to report the QFSRs related to these funds directly to
ETA. GDOL was responsible for providing QFSRs to ETA related to WtW formula grant
funds since these funds, passed through the State.

We audited key participant performance data on Savannah’s June 30, 2002 QFSRs.
The results of our audit showed that 62 percent of selected WtW participant
performance data reported was either misreported or omitted. This result was based on
a review of participants’ official files and the QFSR results submitted by Savannah.26
According to GDOL and Savannah officials, the errors likely occurred because
participant enrollment data was improperly entered into the Georgia Workforce System
(GWS) at the One-Stop center during the participant enrollment process or after the
State converted data from the MIS to the GWS. GDOL officials explained that data was
either lost or transferred incorrectly when the State converted data between the two
state information systems. Neither GDOL nor Savannah followed existing controls to

26
  We randomly sampled 82 files, which our estimates were based on an examination of these files with a
90 percent confidence level.
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                      25
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

validate the data entered at the One-Stop centers. We conclude that the lack of data
validation contributed to the errors identified in our review of participant data.


The graph below illustrates the error rate of participant reporting.




                                   Participant Reporting Errors



                    Data Omitted                                  Data Properly
                    from QFSRs                                     reported on
                        30%                                          QFSRs
                                                                      38%




                            Data
                         Improperly
                         reported on
                           QFSRs
                            32%




We randomly selected 82 participants, out of a universe of 1,394, and verified their status
as reported on applicable QFSR, to supporting documentation in each participant’s official
file. In total, we identified 80 instances where the reported information was incorrect on
QFSRs:

     •   Item 26 - Placed in Unsubsidized Employment;
     •   Item 27 - Employed in Unsubsidized Employment When Entering WtW; and
     •   Item 29 - Retained 6 Months (2 Quarters) in Unsubsidized Employment.




26                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No: 04-05-004-03-386
                             Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




Item 26, Placed in Unsubsidized Employment

Twenty-eight participants were either incorrectly reported on or omitted from Item 26,
Placed in Unsubsidized Employment. Eight participants were shown as placed;
however, there was no supporting documentation to substantiate an unsubsidized
placement. The remaining 20 participants had documentation supporting an
unsubsidized placement; however, those individuals were not reported on the QFSR.

Based on our random sample at the 90 percent confidence level, we estimate that 137
participants would be claimed in error and 340 participants would be omitted in error on
the QFSR.27

Item 27, Employed in Unsubsidized Employment When Entering WtW

Twenty-six participants were either incorrectly reported on or omitted from Item 27,
Employed in Unsubsidized Employment when Entering WtW. Twenty participants were
incorrectly reported as being in unsubsidized employment when entering WtW. The
remaining six participants had documentation supporting an unsubsidized employment
when entering WtW, yet those individuals were not reported on the QFSR. Based on
our random sample at the 90 percent confidence level, we estimate 340 participants
would be claimed in error and 102 participants would be omitted in error on the QFSR.28

Item 29, Retained 6 Months (two quarters) in Unsubsidized Employment

Twenty-six participants were either incorrectly reported on or omitted from Item 29,
Retained 6 months (two Quarters) in Unsubsidized Employment. Thirteen participants
were incorrectly reported as being in unsubsidized employment for two quarters after
placement. The remaining 13 participants had documentation supporting an
unsubsidized retention, yet those individuals were not reported on the QFSR. Based on
our random sample at the 90 percent confidence level, we estimate 222 participants
would be claimed in error and 222 participants would be omitted in error on the QFSR.29

On August 9 and 10, 2001, ETA conducted a review of the programmatic and
administrative elements of Savannah’s WtW grants. ETA determined that Savannah
did not have a reporting system in place to track participant status. Consequently, ETA
was unable to verify the participant data previously submitted on the QFSR related to




27
    Item 26 - The sampling precision of the projection for participants claimed in error is plus or minus 74; and plus
or minus 106 for participants omitted in error.
28
    Item 27 -The sampling precision of the projection for participants claimed in error is plus or minus 106; and plus
or minus 64 for participants omitted in error.
29
   Item 29 - The sampling precision of the projection for participants claimed in error is plus or minus 91; and plus or
minus 91 for participants omitted in error.
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                                       27
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

the WtW competitive grants. According to ETA’s monitoring report dated
August 30, 2001:

        The information submitted on the Quarterly Financial Status Report is
        questionable. The WtW grantee and One–Stop Center were unable to
        verify what activities the participants were enrolled in without looking
        through each participant’s folder. Further, the staff that is responsible for
        WtW reporting is new and unfamiliar with the new WtW reporting
        requirements.

Subsequently, ETA required Savannah to train service providers in case management,
and consistently track and document WtW services in each participant’s folder.

According to the GDOL and Savannah officials, these reporting errors were likely due to
data problems encountered when the State’s MIS, which included the WtW
participant performance data was converted to the GWS. This conversion was
completed in October 2001.

Data for the QFSRs originates from the GWS. The data is entered into the GWS locally
at the One-stop centers for each WtW participant.30 GDOL extracts participant data
used to prepare QFSRs and submits data related to WtW formula and WtW competitive
grants to ETA and Savannah respectively. Savannah is responsible for submitting
participant data it receives from GDOL to ETA for the WtW competitive grant. Though
controls were in place, neither GDOL nor Savannah followed existing controls to
validate participant data entered at the One-Stop centers. We conclude that the lack of
data validation, at both time of data entry and at preparation of QFSRs, contributed to
the errors identified in our review of participant data.

Finding 2b: Official participant files were missing.

We selected a sample of participant files related to WtW formula grants. A total of 9
replacement files were needed in order to obtain a sample of 82 for our review. Seven
of the original 82 participant files were missing and required replacement selection,
while 2 of the replacement files requested were also missing and had to be replaced.
According to Savannah, these files were lost during a prior audit.

Based on the unavailability of these 9 participant files, we estimate 125 files are missing
from a universe of 1,394. Savannah is in violation of 29 CFR 97.42(b), which specifies
that all records pertinent to a grant agreement must be retained for 3 years from the
date of the final expenditure report.




30Reporting was not separately tested for the competitive participants since the participants and the
process were the same.

28                                          U.S. Department of Labor—Office of Inspector General
                                                                    Report No: 04-05-004-03-386
                         Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




Finding 2c: WtW participants were misclassified.

We determined nine participants in our sample were misclassified as “hard-to-employ”
(70 percent), rather than participants who have characteristics of long-term dependency
(30 percent) for which they qualified. 31 After we brought this matter to Savannah
officials’ attention, they properly reclassified the participants. Proper classification of
participants is important because at least 70 percent of WtW funding must be spent on
TANF recipients who will have the most difficulty transitioning into employment (70
percent participants). Based on our random sample at the 90 percent confidence level,
we estimate 153 participants (11 percent) are misclassified in the WtW 70 percent
category. As a result of this misclassification, participant performance and financial
results were improperly reported to ETA. As previously noted in Finding 2a, Savannah
reported inaccurate data on its QFSR. According to Savannah officials, these
misclassifications occurred as a result of clerical errors and the conversion of data from
the MIS to the GWS.

Finding 2d: Participant eligibility was within an acceptable level.

Using random sampling techniques, we determined that the number of ineligible
participants was at an acceptable level as it relate to the WtW formula grants. We
selected a sample of 82 participant files from a universe of 1,394. Based on our
verification of participant eligibility determination, we determined three participants were
ineligible for the WtW program because they did not meet applicable WtW eligibility
requirements as it relate to individuals characterized as hard-to-employ and long-term
welfare dependency. The three ineligible participants represent approximately 3.7
percent of our sample, which we conclude is an acceptable level of compliance with
program eligibility requirements.

Savannah’s participant reporting did not comply with ETA’s reporting guidelines.
Performance driven requirements demand accurate and complete program data and
therefore, validity of program data must be addressed. Reliable data is also necessary
to measure the program’s outcomes and to assist program officials and Congress in
setting the direction and emphasis of employment and training programs. Care should
be taken when reporting results of participants included in multiple programs such as
TANF and WtW, to ensure reports strictly adhere with reporting guidelines.

Recommendation

5. We recommend that the Assistant Secretary for ETA ensure the State of Georgia
   and the City of Savannah follow existing controls for the proper preparation of
   QFSRs and the validation of participant data for DOL programs.



31
  The percent categories represent the amount of WtW grant funds that could be spent for each group of
individuals.
________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                      29
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


Georgia Response

GDOL had controls in place for proper preparation of QFSR’s and data validation for
DOL programs since 1998, despite the lack of reporting instructions from the federal
level. These instructions were issued to local areas in 1998 and 1999 to assist with
reporting and data collection for WtW QFSR’s.

OIG Conclusion

The State of Georgia provided additional information to show that controls were in place
for the preparation of participant data reporting and validation. However, based on the
results in finding 2a to which GDOL's response is applicable, we conclude that controls
were not always followed. This additional information does not materially affect finding
2a and OIG's recommendation as presented in the draft report. The recommendation
will be resolved during DOL’s formal audit resolution process.

Savannah Response

The City of Savannah did not disagree with findings 2a through 2d. Savannah officials
explained the challenges they encountered trying to report accurate participant
performance data, and what steps they have since taken to improve the accuracy of this
data.

OIG Conclusion

We have considered the City of Savannah’s responses to findings 2a through 2d of the
draft report and determined that no additional information was provided that materially
affects the report. Therefore, the report findings remain unchanged. The
recommendation will be resolved during DOL’s formal audit resolution process.




Elliot P. Lewis
October 4, 2004




30                                     U.S. Department of Labor—Office of Inspector General
                                                               Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




Exhibits




________________________________________________________________________________ _
U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                     31
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                     U.S. Department of Labor—Office of Inspector General
                                                               Report No: 04-05-004-03-386
                                 Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                                                                          EXHIBIT A



                                   SCHEDULE OF QUESTIONED COSTS

                             DESCRIPTION                                FINDING            AMOUNT


                   Recommendations 1 and 2
 QUESTIONED COSTS RELATED TO 6 CONTRACTS NOT COMPETITIVELY BID
 Criteria: OMB Circular A-87 Grant/Contract Provisions
           29 CFR 97.20

Recover Expenditures for 6 Contracts Not Competitively Bid                 1a                    $2,530,934
Recover costs for other reasons related to 3 of the 6 contracts:

    Unauthorized Childcare Services                                        1b       $ 327,448

    Duplicate Payments for Childcare Services                              1c          35,210

    Unreasonable Transportation Services                                   1d         228,707

    Ineligible Participants:
      Van Driving Training Program                                         1e          92,339

    Unauthorized Registration and Transportation Fees                      1f          39,760

    Ineligible Participants:
      Wheels-to-Work Program                                               1g            6,471

                                      Subtotal                                       $729,935

                  Recommendation 3
     QUESTIONED COSTS RELATED TO CONTRACT COMPETITIVELY BID
 Criteria: OMB Circular A-87 Grant/Contract Provisions


Unauthorized Childcare Services                                            1b       $278,615

Duplicate Payments for Childcare Services                                  1c          43,934

                                      Subtotal                                                   $322,549
Ineligible Participants;
Costs used to recover expenditure overage                                                            2,947

                                          Total Questioned Costs                                 $2,856,430

       ________________________________________________________________________________ _
       U.S. Department of Labor—Office of Inspector General
       Report No: 04-05-004-03-386                                                     33
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                     U.S. Department of Labor—Office of Inspector General
                                                               Report No: 04-05-004-03-386
                              Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants

                                                                                         EXHIBIT B

                          Contracts Not Competitively Procured

                                                                       Total            Expended
         Contract         Contract Name             Contract          Amount             through
           No.                                       Period           Awarded           12/31/0232
        99-08C          Lutheran Services         05/01/99 to
                        of Georgia                12/31/02           $1,116,433        $1,116,433
                  33
        99-09C          Chatham Area              08/09/99 to
                        Transit                   12/20/01               888,643           840,449
        99-11C          Goodwill                  07/01/99 to
                        Industries                12/31/02               114,309           114,309
                        (Wheels to Work)
        99-07C          Housing Authority         05/07/99 to
                        of Savannah               03/31/01                 21,592            16,979
        99-09C          Small Business            06/01/99 to
                        Assistance Center         03/31/01               122,275             17,019
        99-10C          Work Activity             07/01/99 to
                        Center                    12/31/02               550,655           425,745

                                                         TOTAL $2,813,907              $2,530,934




32 Although three of the contracts expired in 2001, there were some financial transactions in PY 2002 to re-
distribute WtW funds from the 70 percent to the 30 percent category.
33
   Savannah inadvertently assigned Chatham Area Transit and Small Business Assistance Center the same contract
number (99-09C).

U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                                  35
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                     U.S. Department of Labor—Office of Inspector General
                                                               Report No: 04-05-004-03-386
                         Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




Appendices




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                 37
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                                     U.S. Department of Labor—Office of Inspector General
38                                                           Report No: 04-05-004-03-386
                      Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


                                                                                      APPENDIX A

Background

Purpose of the Welfare-to-Work Grant

WtW legislation passed in August 1997 authorized the Secretary of Labor to provide
$3 billion in WtW grants to states and local communities.34 These grants were
designed to target welfare recipients with the least skills, education, employment
experience and those who live in high poverty areas. In fact, WtW is specifically
designed to supplement the TANF program managed by the Department of Health
and Human Services. WtW funding strives to provide transitional assistance by
helping hard-to-employ TANF welfare recipients and eligible noncustodial parents
find unsubsidized jobs and achieve economic self-sufficiency.

To receive WtW formula grant funds, a state submits a plan to administer a WtW
program. States request define the targeted population it plans to help, and list each
regional location within the state designated to participate. The Secretary of Labor
then determines whether or not the plan meets all statutory requirements and
approves or disapproves each grant award accordingly. As 1 of 20 participating
areas in Georgia, Savannah received its first WtW formula grant in 1998 for
approximately $1.6 million.

Subgrantees designated by the State to receive formula grants, such as Savannah,
assume all responsibilities required to manage the Federal funds. Specific grant
program responsibilities are defined in the applicable CFR and OMB Circulars. Two
areas key to each WtW formula grant include financial management and participant
reporting.

Unlike WtW formula grants, WtW competitive grants were directly awarded to the
grant recipients from ETA. In addition, there were no matching requirements for
WtW competitive grants.

Financial Management. According to 29 CFR 97.20 (Standards for Financial
Management Systems), fiscal control and accounting procedures must be
sufficient to permit the preparation of accurate QFSRs due at the end of each
quarter, and permit the tracing of funds to all related program expenditures. In
general, a subgrantee must have an adequate financial management system that
includes internal and management controls necessary to ensure grant fund
expenditures are allowable and authorized. We think the gateway to an effective



34
  A total of $3 billion was appropriated for this program: $1.5 billion awarded in each of FYs 1998 and
1999. There are two kinds of grants: (1) WtW Formula grants to states and (2) WtW Competitive
grants directly to local communities.

U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                         39
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




financial management system is proper procurement practices. This establishes the
foundation to ensure an entity’s costs will likely be allowable and authorized.

Allowable Cost: Applicable OMB cost principles, agency program regulations, and
the terms of grant and subgrant agreements will be followed in determining the
reasonableness, allowability, and allocability of costs.

Budget Control: Actual expenditures or outlays must be compared with budgeted
amounts for each grant or subgrant. Financial information must be related to
performance or productivity data, including the development of unit cost information
whenever appropriate or specifically required in the grant or subgrant agreement. If
unit cost data are required, estimates based on available documentation will be
accepted whenever possible.

Internal Control: Effective control and accountability must be maintained for all grant
and subgrant cash, real, and personal property, and other assets. Grantees and
subgrantees must adequately safeguard all such property and must assure that it is
used solely for authorized purposes.

Participant Reporting. WtW grant recipients must report participant data in
accordance with instructions issued by the Employment and Training Administration
(ETA). Required data must be submitted as a component of the QFSR. Information
in each quarterly report includes the number of participants:

     •   served;
     •   terminated from the program;
     •   placed in subsidized and unsubsidized employment;
     •   who retained a job for six months; and
     •   whose earnings increased six months after placement.

Savannah’s WtW Formula and Competitive Grant Programs.
Savannah was the official grant recipient of the WtW funds and assumed fiduciary
responsibility. Effective July 1, 2000, the Coastal Workforce Services, a department
of Savannah, replaced SeaCoast Workforce Development Board as the
administrative entity for Savannah’s WtW grant programs.

Savannah received three WtW formula grants for a total of $3,400,958. In May 1998
and September 1999, Savannah received two WtW formula grants in the amounts of
$1,616,716 and $1,636,757 to serve a nine county Coastal Region35 in the State. In
August 2002, Savannah received a third formula grant in the amount of



35
  The nine county region includes Bryan, Bulloch, Liberty, Long, Effingham, Chatham, Glynn,
McIntosh and Camden counties.
                                          U.S. Department of Labor—Office of Inspector General
40                                                                    Report No: 04-05-004-03-386
                      Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




$147,485 to help cover accumulated expenditures that exceeded the PY 1999 WtW
formula grant amount. By June 2002, Savannah had expended all of its $3,400,958
WtW formula grant funds.

In January 1999, Savannah received a WtW competitive grant in the amount of
$4,067,000 from ETA to serve residents of Chatham County only. As of
March 31, 2004, Savannah had expended and reimbursed $3,937,295 of these
funds. The remaining balance of $129,705 was unobligated.

The competitive grant was a follow-on grant to the WtW formula grant solely for the
residents of Chatham County. Savannah updated the number of participants it
served to 1,394 for our audit period. 36




36 The universe of 1,394 includes all participants served under both WtW Competitive and Formula

grants, and includes 21 participants that reenrolled after terminating the WtW program. Savannah
reportedly served 785 from the PY 1998 Formula grant; 1,323 from the PY 1999 Formula grant; and
609 participants from the WtW Competitive grant as of December 2002. Because many participants
received services funded by both grant types, the combined total number of participants served for
each grant exceeds 1,394.

U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                      41
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                                     U.S. Department of Labor—Office of Inspector General
42                                                           Report No: 04-05-004-03-386
                      Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


                                          APPENDIX B

Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to determine if Savannah complied with regulatory requirements
for WtW grants in the areas financial management and participant reporting
requirements. To accomplish these objectives, we designed our audit tests to
answer the following questions:

•    Did Savannah adequately manage WtW grant funds?

• Did Savannah comply with mandatory participant reporting requirements by
     submitting accurate and reliable performance data; and serve eligible participants
     to meet program objectives?

Scope and Methodology

The OIG conducted a performance audit of the $7,467,958 federally-funded WtW
grants provided to Savannah under the WtW competitive and formula grants for
Program Years 1998 and 1999. The $7,467,958 included three WtW formula grants
for a total of $3,400,958 after modifications; and one WtW competitive grant in the
amount of $4,067,000.37

Our audit was conducted in accordance with Generally Accepted Government
Auditing Standards, issued by the Comptroller General of the United States and
included such tests, as we considered necessary to satisfy the audit objective. The
audit was primarily performed at the Coastal Workforce Services agency, Savannah,
Georgia. The audit examined Savannah’s WtW formula and competitive grants
awarded in PY 1998 and PY 1999.38 Transactions were examined using both
statistical and judgmental sampling techniques as described below.

Audit fieldwork was performed in Savannah, Georgia, during the period of October
2003 through October 2004. In general, our audit tests covered the area of
Financial Management. We examined transactions that occurred primarily during
October 1998 through June 2003. Savannah was judgmentally selected because its
accumulated expenditures exceeded its PY 1999 WtW formula grant award.



37
   The three WtW Formula grants were awarded in May 1998, September 1999, and August 2002;
and the WtW Competitive grant was awarded in January 1999.
38
   These grants, as originally awarded, allowed 3 years to complete grants activities. The provisions
in the DOL/HHS/Education Appropriations Act of 2001 extended the life of the grant for an additional
2 years.

U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                        43
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


To gain an understanding of the WtW formula and competitive grants we reviewed
applicable legislation, regulations, and reporting guidelines. We interviewed staff
members from CWS responsible for the day-to-day operations of Savannah’s WtW
grant programs. Areas of discussions included, but were not limited to, accounting
and administrative controls, financial and participant reporting, and procurement.
We also reviewed Savannah’s WtW program plan, policy and procedure manuals,
and board meeting minutes.

We reviewed audit reports issued under OMB Circular A-133 (Audits of States, Local
Governments, and Non-Profit Organizations) and ETA’s monitoring report on
Savannah’s programs funded under the competitive grant to identify WtW issues
that impact the objective of our audit. We relied on computer-generated data when
performing our audit tests, and in accordance with audit guidelines, we tested the
validity and reliability of the data. Specific audit tests were performed in the areas of
financial management and participant reporting requirements.

                                   FINANCIAL MANAGEMENT

Audit tests of Savannah’s financial management practices, as it relates to WtW
funds, focused on three areas: cash management, reporting, and expenditures. Our
methods used to examine each area and specific information about each test is
presented below.

Cash Management tests were designed to determine whether cash drawn by
Savannah occurred when valid expenditures existed as prescribed by 29 CFR 97.
Specifically, we reviewed all (33) of the WtW formula cash drawdowns totaling
$3,400,958 that occurred from November 1998 to October 2002, and determined
whether expenditures were valid by examining Savannah’s general ledger.39

In addition, we verified these funds were deposited40 into WtW accounts. Savannah
drew down competitive grant funds in a similar manner as WtW formula grant funds,
since funds were drawn down after expenses had been incurred.




Reported cumulative expenditures41on the QFSRs were compared to Savannah’s
general ledger entries. Specifically, we compared the total expenditures of
39
   We found no problems during a total review of the WtW Formula grant drawdowns. We did not test
any WtW Competitive grant drawdowns. After comparing the draw down techniques of the two grant
types, we found little difference in the methodology. We did not test the Competitive Grant cash
drawdowns as prescribed by 29 CFR 97.20.
40
   A single bank account was established for all Department of Labor grant funds and accordingly
included other grants outside the scope of our audit, such as WIA. In order to account for WtW
deposits, tests were designed to identify all non-WtW grant deposits occurring on the same day as a
WtW deposit.
                                             U.S. Department of Labor—Office of Inspector General
44                                                                      Report No: 04-05-004-03-386
                     Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


$6,740,874 reported on the June 2002 and December 2002 QFSRs for the WtW
formula and competitive grants, respectively, to the general ledger entries posted
during July 1998 to December 2002 in order to assess Savannah’s compliance with
ETA’s instructions included at 20 CFR 645.240.42

Expenditures were tested to assess compliance with 20 CFR 645, 29 CFR 97.20,
WtW Grants; Final Rule; Interim Rule; and OMB Circular A-87, Cost Principles for
State, Local and Indian Tribal Governments requirements that expenses are
reasonable and allowable. Audit tests were designed to review both administrative
and program costs.

Administrative costs for July, August, and September 2000 were selected for review
because this quarter reported a large amount of cost in each grant year (FYs 1998
and 1999) and contains costs in many element reported on Savannah’s QFSRs.
QFSRs for both WtW competitive and formula grants were examined to ensure the
reported43 administrative costs did not exceed 15 percent of the grant as prescribed
by ETA’s instructions included at 20 CFR 645.235 (a). We judgmentally selected
and tested reported payroll expenditures totaling $8,562 of $64,694 related to both
WtW competitive and formula grants. For the employee payroll expenditures, we
determined whether salaries charged to the WtW grant agreed with salary data (to
include fringe benefits) within each personnel file, net pay agreed with direct deposit
listings, time/attendance records were available and certified by a supervisor, and
employees performed duties that supported the WtW program. We traced general
ledger entries to employee time sheets to verify the propriety of all charges.

Contracts were awarded including modifications totaling $6,239,642 for 24 WtW
formula and WtW competitive contracts. The contracts were reviewed to determine if
the contracts were competitively bid.

We also reviewed contracts expenditures totaling $1,238,812 paid between October
1998 and June 2003 related to 8 of the 24 contracts.44 To determine whether the
costs were allowable, necessary, and reasonable as described in WtW,




41
   Formula grant cumulative expenditures of $1,616,716 and 1,784,242 through June 2002 applicable
to grant program years 1998 and 1999, respectively, and WtW Competitive grant cumulative
expenditures of $3,339,916 through December 2002.
42
   20 CFR 645.240 requires WtW Formula grant reports be submitted in accordance with ETA
Instructions contained in TEGL 11 – 97, change 2 (Instructions for Reporting Welfare-to-Work
Formula Grants Financial and Participant Data).
43
   WtW Competitive grant costs were taken directly from the WtW Competitive Grant QFSR and WtW
Formula grants costs were taken from the QFSR Georgia WtW Grant.
44
   The eight contracts included three contracts funded with WtW Formula grants ($46,649) funds and
five contracts funded with the WtW Competitive grant ($1,192,163) funds.

U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                    45
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


Financial Management, and procurement regulations, OMB Circular A 87, the grant
agreements and contracts, we judgmentally selected 8 of the 24 contracts with high
dollar value.

Non-traditional Childcare Program: Savannah awarded LSG two contracts for a total
of $1,574,433 ($1,116,433 and $458,000) from its WtW competitive grant funds to
operate this program. The two contracts covered May 1999 to June 2003. We
requested and examined all related invoices for nontraditional childcare costs, which
totaled $871,170. We determined whether the amounts billed and reimbursed
complied with the authorized grant amount per child. We identified amounts that
were in excess of the cost per child, including payments that exceeded the approved
supplemental amounts, duplicate payments, payments for services to children not
authorized in the grant, and other unauthorized costs.

We consider our approach for questioned costs related to the childcare program to
be somewhat conservative. For example, our analysis excluded the costs of
childcare services for less than 1 week. These costs were based on daily rates
rather than weekly rates clearly defined in the grant agreement and established by
LSG. We did not consider that daily rates for childcare services would materially
affect the results of our analysis. We also excluded sick care costs from our analysis
as these costs were based on daily rates. Our basis for questioning costs was
based entirely on a comparison of the grant agreement amounts and the invoiced
amounts paid to childcare providers.

Transportation Costs: We also examined the reasonableness of CAT’s costs for
transportation services because costs appeared excessive as this costs was based
on CAT’s subcontractor (Laidlaw) operational costs rather than the cost of each trip.
We requested the ‘Summary Manifests’ for 16,333 trips provided to WtW participants
during the contract period of August 1999 through December 2001. The
subcontractor (Services, Inc.) that provided the transportation services did not
maintain summary data from August 1999 to June 2000. Based on CAT’s initial
reports, they could provide summary data for 9,619 of the 16,333 trips. The
estimated cost for the 9,619 trips was $414,722 (or an average cost of $43.11 per
trip). We obtained transportation manifests covering the period June 5, 2000, to
December 20, 2001.45

We randomly selected 140 trips for review from a universe of 6,823 trips for which
summary data was available. We subsequently reconstructed actual miles driven
per trip to determine trip averages, both distance and cost. Afterward, we computed
average historical trip costs by dividing trips into total dollars paid for the contract.
The average trip cost was compared to the trip cost available from a commercial
carrier that provides taxi and shuttle services.




45
  Summary data was available for 6,823 of the 16,333 trips provided during the contract period.
                                        U.S. Department of Labor—Office of Inspector General
46                                                                  Report No: 04-05-004-03-386
                       Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


Participants Eligibility: We also reviewed the files of individuals that participated in
Savannah’s Van Pool Driving Training program and its Wheels-to-Work program.
We verified whether individuals’ eligibility determination were proper. We reviewed
financial records for those individuals we determined to be ineligible for these
programs and identified the related costs.


                           PARTICIPANT REPORTING REQUIREMENTS

We randomly sampled 82 official files46 from a universe of 1,394 participant to
determine whether the June 30, 2002 QFSRs for the WtW competitive and formula
grants47 were accurate and reliable. To test the accuracy of the June report, we
reviewed participant case files and verified each of the 82 participant’s reported
status.48 In addition to reported status accuracy, we also determined if individuals
met eligibility requirements and had received an in-depth assessment. For eligible
individuals, we also determined whether Savannah had properly categorized the
hard-to-employ participants in the 70 percent grouping. Requirements for
participant reporting, eligibility, in-depth assessment, and placing a participant in the
70 percent category are defined49 in 20 CFR 645.

QFSR line items were evaluated for compliance with “Instructions for Reporting WtW
Formula Grants Financial and Participant Data” issued by ETA for the following line
items:

     •   Item 24 - Participants Served;
     •   Item 26 - Placed in Unsubsidized Employment;
     •   Item 27 - Employed in Unsubsidized Employment When Entering WtW; and
     •   Item 29 - Retained 6 Months (two quarters) in Unsubsidized Employment.

Criteria

Prior to January 11, 2001, the Interim Rule at 20 CFR 645 (WtW Grants) was used
as a reference for state and local projects. Effective January 11, 2001, the Interim



46 OIG statistical estimates were based on the review of 82 case files and used a 90 percent confidence
level. In order to review 82 files, 91 files had to be selected because 9 files were missing.
47 Audit tests examined participants served under both WtW Competitive and Formula grants. We

did not distinguish participants between the types of grant as the basic eligibility requirements were
the same.
48 Participant status in this sense means proper enrollment, categories, placement, and retention.
49 Effective July 1, 2000 the eligibility criteria was significantly amended through the passage of the

Consolidated Appropriations Act for FY 2000 that contains the WtW and Child Support
Amendments of 1999. The effective eligibility criteria were determined based on the date of
eligibility determination indicated in the case files.


U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                                          47
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


Final Rule was issued. Federal regulations at 29 CFR 97 (Uniform Administrative
Requirements for Grants and Cooperative Agreements to State and Local
Governments) outline financial management and procurement standards for state
and local governments. OMB Circular A 87 (Cost Principles for State, Local and
Indian Tribal Governments) requires that expenses are reasonable and allowable.




                                     U.S. Department of Labor—Office of Inspector General
48                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                                                           APPENDIX C
ACRONYMS AND ABBREVIATIONS


CAT                   Chatham Area Transit
CFR                   Code of Federal Regulations
CWS                   Coastal Workforce Services
DFCS                  Department of Family and Children Services
DOL                   U. S. Department of Labor
ETA                   Employment and Training Administration
FY                    Fiscal Year
GDOL                  Georgia Department of Labor
Goodwill Industries   Goodwill Industries of Coastal Empire, Inc.
GWS                   Georgia Workforce System
Laidlaw               Laidlaw Transit Services, Inc.
LMG                   Lutheran Ministries of Georgia
LSG                   Lutheran Services of Georgia
MIS                   State Management Information System
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
PY                    Program Year
QFSR                  Quarterly Financial Status Report
Savannah              City of Savannah
SWDB                  SeaCoast Workforce Development Board
TANF                  Temporary Assistance for Needy Families
WtW                   Welfare-to-Work




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            49
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                                     U.S. Department of Labor—Office of Inspector General
50                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


GDOL'S RESPONSE TO DRAFT REPORT                                            APPENDIX D




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            51
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
52                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            53
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                                     U.S. Department of Labor—Office of Inspector General
54                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants


 SAVANNAH'S RESPONSE TO DRAFT REPORT                                      APPENDIX E




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            55
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
56                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            57
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
58                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            59
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
60                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            61
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
62                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            63
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
64                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            65
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
66                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            67
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
68                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            69
Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




                                     U.S. Department of Labor—Office of Inspector General
70                                                           Report No: 04-05-004-03-386
                    Performance Audit of City of Savannah, Georgia Welfare-to-Work Grants




U.S. Department of Labor—Office of Inspector General
Report No: 04-05-004-03-386                                                            71
